No. 19-575

Jfn mbe

~upreme qcourt of tbe fflniteb ~tates
CHARTER COMMUNICATIONS, INC. AND
SPECTRUM MANAGEMENT HOLDING COMPANY, LLC,

Petitioners,

v.
STEVE GALLION, ET AL.,

Respondents.
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

REPLY IN SUPPORT OF PETITION FOR A WRIT OF CERTIORARI

CERTIFICATE OF SERVICE
I, Richard P. Bress, counsel of record for Petitioners Charter Communications,
Inc. and Spectrum Management Holding Company, LLC, and a member of the Bar of
this Court, hereby certify that on the 20th day of December, 2019, I caused to be
served three (3) copies of the Reply in Support of Petition for a Writ of Certiorari in
the above-referenced case by first-class mail, postage prepaid, upon counsel as listed
below:

Scott L. Nelson
Public Citizen Litigation Group
1600 20th Street, NW
Washington, DC 20009
(202) 588-1000
snelson@citizen.org

Counsel for Respondent Steve Gallion
Noel Francisco
Solicitor General of the United States
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, :pc 20530-0001
(202) 514-2203
SupremeCtBriefs@USDOJ.gov

Counsel for Respondent United States
Additionally, in accordance with Supreme Court Rule 29.3, an electronic
version of the Reply in Support of Petition for a Writ of Certiorari was transmitted to
the above-listed counsel at the referenced email addresses.

-

I further certify that all parties required to be served ha~ . be~ . . . . . . .._,.

By? -----==~ ~~ ~~ ~- Richard P. Bress
LATHAM & WATKINS LLP
555 11th Street, NW
Suite 1000
Washington, DC 20004
(202) 637-2200
rick. bress@lw.com

Counsel for Petitioners

2

